No.

in Ve

Supreme court Of t'6e UniteS States
IRMA ROSAS
Petitioner,
v.
ROMAN CATHOLIC ARCHDIOCESE OF
CHICAGO,
Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Seventh Circuit

PETITION FOR A WRIT OF CERTIORARI

IRMA ROSAS, pro se
6333 South Lavergne Avenue
Chicago, Illinois 60638
Telephone: (773) 627-8330
E-mail: irmarosaswebsite@gmail.com

1

QUESTION PRESENTED
WHETHER THE LOWER COURT, IN CONFLICT
WITH THIS COURT'S HOLDING IN ERICKSON
V. PARDUS, 551 U.S. 89 (2007), SO FAR
DEPARTED FROM THE ACCEPTED AND
USUAL COURSE OF JUDICIAL PROCEEDINGS
PERTAINING TO PRO SE LITIGANTS.

11

TABLE OF CONTENTS
PAGE
QUESTION PRESENTED
TABLE OF AUTHORITIES

vi

PETITION FOR WRIT OF CERTIORARI
OPINIONS BELOW

1
1

JUDISDICTION

1

STATUTORY PROVISIONS
INVOLVED

2

STATEMENT OF THE CASE

2

REASONS FOR GRANTING THE WRIT

13

I. THIS COURT SHOULD DECIDE
THE QUESTION OF WHETHER
THE LOWER COURT, IN CONFLICT
WITH THIS COURT'S HOLDING IN
ERICKSON V. PARDUS, 551 U.S. 89
(2007), SO FAR DEPARTED FROM
THE ACCEPTED AND USUAL
COURSE

OF

JUDICIAL

PROCEEDINGS PERTAINING TO
PRO SE LITIGANTS
A.

The Seventh Circuit's Policy

13

111
TABLE OF CONTENTS - Continued
PAGE
Arguments and Analogies to
Other Sources of Law Do Not
Support This Court's Ruling
under Erickson
B.

16

Under Proper Standard, Rosas'
Argument Justifies Advancement to Adjudication through
Discovery

20

II. THIS CASE PRESENTS A
RECURRING QUESTION OF EXCEPTIONAL IMPORTANCE WARRANTING THE COURT'S
IMMEDIATE RESOLUTION
CONCLUSION

22
25

APPENDIX INDEX
United States Court of Appeals for the
Seventh Circuit Decision
United States District Court for the
Northern District of Illinois

App. 1

iv
PAGE
TABLE OF CONTENTS — Continued
Decision

App. 7

United States Court of Appeals for the
Seventh Circuit Decision
(Petition for Rehearing)

App. 8

Practitioner's Handbook for Appeals to the
U.S. Court of Appeals for the
Seventh Circuit, 2017 Edition,
pp. 104-105

App. 9

Weiss, D.C. (2017, September 7).
Why did Posner retire?
He cites 'difficulty' with his
colleagues on one issue.
Retrieved from http://www.
abajournal.com/news/article/
why_did_posner_retire_he_
cites_difficulty_with_his_
colleagues_on_one_issue
Weiss, D.C. (2017, September 11).
Most judges regard pro se
litigants as 'kind of trash not
worth the time'.

App. 14

V

PAGE
TABLE OF CONTENTS — Continued
Retrieved from http://www.
abajournal.com/news/article/
posner_most judges_regard_
pro_se_litigants_as_kind
_of trash_nor_worth_the_t

App. 18

Weiss, D.C. (2017, September 15).
7th Circuit's chief judge disagrees
with newly retired Posner on pro
se criticisms.
Retrieved from http://www.
abajournal.com/news/article/7th_circuits_chi
ef judge_
responds_to_posner_on_pro_se
_criticisms
App. 21

TABLE OF AUTHORITIES
CASES

PAGE

UNITED STATES SUPREME COURT
Ashcroft v. Iqbal,
556 U.S. 662, 678 (2009)

14

vi
TABLE OF AUTHORITIES - Continued
CASES

PAGE

Bell Atl. Corp. v. Twombly,
550 U.S. 544, 555, 570 (2007)

14

Erickson v. Pardus,
551 U.S. 89 (2007)

passim

Estelle v. Gamble,
429 U.S. 97 (1976)

14

Hollingsworth v. Perry,
558 U.S. 183, 191 (2010)

8, 19

UNITED STATES COURT OF APPEALS
Ambrose v. Roeckeman,
749 F.3d 615, 618 (7th Cir. 2014)

20

Arnett v. Webster,
658 F.3d 742, 751 (7th Cir. 2011)

15

Gonzalez-Koeneke v. West,
791 F.3d 801, 808-09 (7th Cir. 2015) ... 10, 20
Lewis v. Sternes,
390 F.3d 1019, 1027 (7th Cir. 2004)

16

Obriecht v. Raemisch,
517 F.3d 489, 491 n. 2 (7th Cir. 2008)

15

vii
TABLE OF AUTHORITIES - Continued
CASES

PAGE

Osagiede v. United States,
543 F.3d 399, 405 (7th Cir. 2008)

15, 16

Robbins v. Switzer,
104 F. 3d 895, 897-88
(7th Cir. 1997)

8, 17, 18

Rosas v. Advocate Christ Medical Center et al.,
19-1434 (7th Cir. pending)

25

Smith v. Grams,
565 F.3d 1037 (7th Cir. 2009)

16

Stewart Title Guar. Co. v. Cadle Co.,
74 F.3d 835, 837 n.1 (7th Cir. 1996)

8, 19

Swanigan v. City of Chicago,
775 F.3d 953, 963 (7th Cir. 2015)

9, 20

Swanson v. Citibank, N.A.,
614 F.3d. 400, 404 (7th Cir. 2010)

15

Williams v. Milwaukee Health Services,
732 F.3d 770 (7th Cir. 2013)

16

UNITED STATES DISTRICT COURT
Laramore v. Illinois Sports Facilities Auth.,
722 F. Supp. 443, 451-52 (N.D. Ill. 1989) ... 5

viii
TABLE OF AUTHORITIES — Continued
CASES

PAGE

STATE
Boswell v. Sky West Airlines, Inc.,
217 F. Supp. 2d 1212, 1216 (D. Utah 2002). 5
James v. American Airlines, Inc.,
247 F. Supp. 3d 297, 306
(E.D.N.Y 2017)

5

STATUTORY PROVISIONS
28 U.S.C. § 1915

2, 7, 17

28 U.S.C. § 1914

2, 10

Federal Rule of Civil Procedure 6
Federal Rule of Civil Procedure 15
Local Rules 5.3(b), 78.1, 78.3

2, 8, 19
2, 7, 9, 19
2, 8

1
PETITION FOR WRIT OF CERTIORARI
Petitioner, Irma Rosas ("Rosas"), respectfully
petitions for a writ of certiorari issue to review the
judgment of the Court of Appeals for the Seventh
Circuit on January 15, 2019, Rosas v. Roman
Catholic Archdiocese of Chicago, at 748 Fed. Appx.
64 (7th Cir. 2019)

OPINIONS BELOW
The opinion of the Court of Appeals,
affirming the district court's opinion, and is
reported at 748 Fed. Appx. 64 (7th Cir. 2019). App.
1-7. The opinion of the district court granting
Respondent's motion to dismiss, No. 18-02706, not
published. App. 7-8.

JURISDICTION
The judgment of the Court of Appeals was
entered on January 15, 2019, affirming
Respondent's motion to dismiss, finding that Rosas'
denial for leave to file her suit with pauper status
in district court did not warrant relief on appeal,

2
and finding that she did not follow federal and local
rules of civil procedure. App. 4-7. The Court of
Appeals denied the petition for rehearing on
February 8, 2019. App. 8-9. On May 8, 2019, the
Clerk of the Supreme Court of the United States
extended the time to file a petition for a petition for
a writ of certiorari to and including July 9, 2019.
This Court's jurisdiction is invoked under 28 U.S.C.
§ 1254(1).

STATUTORY PROVISIONS INVOLVED
Relevant provisions are: Erickson v. Pardus,
551 U.S. 89 (2007); 28 U.S.C. § 1915; 28 U.S.C. §
1914; Federal Rule of Civil Procedure 6 and 15 and
Local Rules 5.3(b), 78.1, 78.3.

STATEMENT OF THE CASE
Rosas lived in Texas when her father, Mr.
Cruz Rosas, died on April 22, 2008 in Chicago,
Illinois. When she returned to Illinois in 2014, she
looked forward to celebrating her father on Dia de

3
los muertos (Day of the Dead). On November 02,
2014, Rosas visited St. Casimir Cemetery, where
her father was buried, with the intention of
creating a small ofrenda, or altar, with calaveras
(sugar skulls), flowers, and Mr. Rosas' favorite
foods and beverages. She also bought copal incense
to burn and candles to light. After lighting the
copal, a groundskeeper arrived and ordered her to
stop burning it and to remove everything she had
placed on the gravestone. Rosas went to the office
for an explanation and was told that she could not
create an altar for her father.

On June 11, 2018, Rosas called the Cemetery
and inquired whether Dia de los muertos was going
to be celebrated that year. She spoke with Dolores,
who said that the only days that were celebrated
were "All Saints Day" and "All Souls Day" but not
Dia de los muertos. Ted, Dolores' manager, did not
know what Dia de los muertos was until Rosas
mentioned Coco, the animated film by Pixar
Animation Studies/Walt Disney Pictures based on
Dia de los muertos that boxed over $800 million.

4
Dia de los muertos is a culturally significant
day for people of Mexican-origin.

On June 22, 2018, Rosas filed her second
amended complaint—the leading case—against
Respondent Roman Catholic Archdiocese of
Chicago, comprising of 5 pages. (Doc. 15). Rosas
asserted that Respondent prevented her from
honoring her deceased father following her
Mexican cultural practices of Dia de los muertos
(Day of the Dead) at St. Casimir Cemetery, in
violation of Title VI of the Civil Rights Act of 1964.
(Id. at 1).

On July 2, 2018, the Executive Committee
ordered the leading case to be reassigned from
Judge Virginia M. Kendall to Judge Charles R.
Norgle for all further proceedings. (Doc. 17).

On July 27, 2018, Respondent moved to
dismiss complaint pursuant to Rule 12(b)(6),
arguing that Rosas (1) failed to state a claim under
Title VI because she did not allege the required

5
receipt of federal financial assistance and (2) failed
to state a claim under §§ 1983, 1985, or 1986
because she did not allege any state action or
involvement. (Doc. 22). Respondent argued,

A private organization is only subject
to Title VI if such assistance is
extended to the organization "as a
whole." 42 U.S.C. § 2000d-4a(3)(A)(i);
see Boswell v. Sky West Airlines, Inc.,
217 F. Supp. 2d 1212, 1216 (D. Utah
2002) (a "program or activity" does not
include all operations of a private
entity if that private entity receives
federal funds for a specific and limited
purpose"); id. (reviewing legislative
history). (Id. at 3).

Plaintiff does not allege that federal
financial assistance is extended to
Defendant "as a whole." 42 U.S.C. §
2000d-4a(3)(A)(i). In addition, Plaintiff
does not allege that St. Casimir

6
Catholic Cemetery, where the alleged
discrimination occurred, is a recipient
of federal financial assistance.

Accordingly, Plaintiff fails to state a
claim under Title VI. See Laramore v.
Illinois Sports Facilities Auth., 722 F.
Supp. 443, 451-52 (N.D. Ill. 1989)
(dismissing Title VI claim where
"plaintiffs have failed to allege federal
financial assistance");

James v.

American Airlines, Inc., 247 F. Supp.
3d 297, 306 (E.D.N.Y 2017)
(dismissing pro se plaintiffs Title VI
claim where plaintiff failed to "identify
any 'program or activity receiving
Federal financial assistance"). (Id. at
3-4).

Just as Rosas prepared a response to the motion,
she was informed that on August 3, 2018, her
complaint had been dismissed with prejudice. (App.
7-8).

7
During the motion hearing, the district
court, asked "[b]ut there are two things you say,
that this is a private institution, that there is —
they are not state actors; and, additionally, they
receive no form of federal funding in any way."
Respondent replied, "[t]he Archdiocese as a whole
does not receive federal funds, that's correct. And it
is not alleged in the complaint either." (See Tr.,
Doc. 32 at 3). The district court noting Rosas'
failure to appear for the hearing, held that the

"motion appear[ed] meritorious on its face and
[was] granted." (Id., Doc. 7-8). Rosas immediately
filed the notice of appeal on August 6, 2018. (Doc.
25).

On August 20, 2018, Rosas applied for leave
to appeal in forma pauperis, which was granted.
(Doc. 31). To the best of her ability as a pro se
litigant, Rosas filed her brief on October 1, 2018.
(Doc. 8).

The Court of Appeals wrote,

8
We have agreed to decide this case
without oral argument because the
briefs and record adequately present
the facts and legal arguments, and
oral argument would not significantly
aid the court. FED. R. CIV. P.
34(a)(2)(C). App. 1.
In short, the briefs and record adequately
presented the facts and legal arguments.

A panel of the Court of Appeals affirmed the
district court's judgment. App. 1-7. The panel first
addressed Rosas' denial of her in forma pauperis
application by the district court and that it had
violated 28 U.S.C. § 1915(a)(1). It held,

that ruling does not warrant relief on
appeal. First, Rosas already paid the
entire filing fee in the district court, as
was her eventual obligation. Under 28
U.S.C. § 1915(a), a district court may
allow a litigant to proceed "without

9
prepayment of fees," (emphasis added)
but not without ever paying fees. See
Robbins v. Switzer, 104 F. 3d 895, 89788 (7th Cir. 1997). Second, Rosas does
not contend that the court's ruling
that she prepay her fee harmed her
ability to litigate. To the contrary,
Rosas's ability to litigate this case was
not harmed because, as we explain
below, the district court permissibly
dismissed her complaint as legally
insufficient. (App. 4-5) [emphasis in
original]).

Second was Rosas' claim that the district
court did not follow Federal Rule of Civil Procedure
6(c)(1). It held,

[t]rue, the Archdiocese notified Rosas
about its motion to dismiss just seven
days before its hearing. But a district
court may adopt local rules that alter

10
the default deadlines of Rule 6, see
Fed. R. CIV. P. 83; Hollingsworth v.
Perry,

558 U.S. 183, 191 (2010);

Stewart Title Guar. Co. v. Cadle Co.,
74 F.3d 835, 837 n.1 (7th Cir. 1996).
The district court's local rules state
that a motion served by mail must be
presented to the court at least 7 days
after mailing the notice to the parties.
N.D. ILL. LOC. RS. 5.3(b), 78.1, 78.3.
Because the Archdiocese followed the
district court's permissible local rules,
no error occurred. (App. 5-6).

The third argument to be addressed was
Rosas' claim that the district court did not follow
Federal Rule of Civil Procedure 15(a)(1)(B). The
panel held,

...as Rosas contends, she was entitled
to file an amended complaint "as a
matter of course" within 21 days of the
Archdiocese's motion, permission from

11
the judge was unnecessary.

See

Swanigan v. City of Chicago, 775 F.3d
953, 963 (7th Cir. 2015) (under Rule
15(a)(1), "whether to allow" a party's
timely amendment is "out of the
court's hands entirely" because the
party has a "right" to amend). Yet
Rosas did not even attempt to submit
a proposed pleading. Nor has she
explained on appeal how she would
cure the deficiency that the
Archdiocese identified (no federal
funding). Rosas also has not argued
that, despite the absence of a federalfunding allegation, her complaint is
legally sufficient' under Title VI.
Under these circumstances, the judge
did not err by dismissing the
complaint without inviting Rosas to
amend her complaint a third time. See
Gonzalez-Koeneke v. West, 791 F.3d

1 This

is not a typographical error.

12
801, 808-09 (7th Cir. 2015). App. 6-7
[emphasis added].

Rosas sought rehearing on January 28, 2019.
(Doc. 15). Rosas made three arguments in response
to the panel's decision to affirm the lower court's
decision. (Id.). The first focused on the panel not
addressing how Rosas' motion to proceed in forma
pauperis was denied in district court but was
granted in the Court of Appeals; her income had
been less when she filed in district court. (Id. at 56).

Second, Rosas responded to the panel's
statement, "contention that the denial of pauper
status kept her from litigating a valid claim is
meritless." App. 2. Rosas responded,

[t]here are benefits in granting
litigants to proceed IFP [in forma
pauperis]. Pursuant to 28 U.S.C. §
1915(e), the Court is empowered to
screen any civil complaint filed by a

13
party proceeding IFP to determine
whether the claims presented are (1)
frivolous or malicious; (2) fail to state
a claim on which relief may be
granted; or (3) seek monetary relief
against a defendant who is immune
from such relief. Plaintiff-Appellant,
as someone with an income below the
poverty line at the time and as
someone representing herself, was
barred from receiving this substantive
review. (p. 6 [emphasis in original]).
(Doc. 15 at 6).

In regards to being notified about the motion
hearing, the panel wrote, "It [the Archdiocese]
notified Rosas by mail that its counsel 'shall
appear' before the district judge seven days later to
present the motion to dismiss." App. 4. [emphasis
added]. Rosas responded,

...the panel found it sufficient that
Defendant notify Plaintiff-Appellant of

14
the motion and hearing. The Court,
however, never notified PlaintiffAppellant of the motion and hearing.
There was no Minute Entry for a
motion and hearing. How a Defendant
can dictate court proceedings
continues unanswered. It also
highlights a bias in favor of
Defendant.

Plaintiff-Appellant

has

experience with other cases and in
different jurisdictions, and the
manner in which this case was
handled presents partiality against
her case. (Doc. 15 at 7).
Third, the panel wrote,

Yet Rosas did not even attempt to
submit a proposed pleading. Nor has
she explained on appeal how she
would cure the deficiency that the

15
Archdiocese identified (no federal
funding). App. 6.

Rosas responded by submitting a copy of the
"Combined Financial Statements as of and for the
Years Ended June 30, 2017 and 2016,
Supplementary Information as of and the Year
Ended June 30 2017, an Independent Auditor's
Report" issued by the Catholic Charities of the
Archdiocese of Chicago with her petition for
rehearing in order to prove how she would cure the
deficiency that Respondent received/receives
federal funding. (Doc. 35 at 7-9, 15-46).

From the Report, Rosas highlighted the
following:

Catholic Charities' largest government
funder is the State of Illinois, who
accounted for approximately 69% of
the fees and grants from government
agencies for the years ended June 30,
2017 and 2016. The funds received

16
from the State of Illinois originate
both from the federal government and
the State of Illinois. (internal
quotation omitted) (Doc. 35 at 8-9
[emphasis in original]).

Rosas explained to the panel of judges how Title VI
protected her from discrimination by Respondent
based on her race/ethnicity and national origin.

The panel denied rehearing on February 8,
2019. Rosas is now seeking review of that opinion
by this Court.

This Writ of Certiorari followed.

REASONS FOR GRANTING THE WRIT
I. THIS COURT SHOULD DECIDE THE
QUESTION OF WHETHER THE LOWER
COURT, IN CONFLICT WITH THIS
COURT'S HOLDING IN ERICKSON V.
PARDUS, 551 U.S. 89 (2007), SO FAR

17
DEPARTED FROM THE ACCEPTED
AND USUAL COURSE OF JUDICIAL
PROCEEDINGS PERTAINING TO PRO
SE LITIGANTS

Notwithstanding the rulings in Bell Atl.
Corp. v. Twombly, 550 U.S. 544 (2007) and Ashcroft
v. Iqbal, 556 U.S. 662 (2009), this Court rejected,
with Erickson v. Pardus, 551 U.S. 89 (2007), the
Court of Appeals' departure from liberal pleading
standards set forth by Rule 8(a)(2) because
Erickson had been proceeding pro se from the
litigation's outset. This Court stated,

[a] document filed pro se is "to be
liberally construed," Estelle, 429 U.S.,
at 106, and "a pro se complaint,
however inartfully pleaded, must be
held to less stringent standards than
formal pleadings drafted by lawyers."
ibid.

(internal quotation marks

omitted). Cf. Fed. Rule Civ. Proc. 8(f)

18
("All pleadings shall be construed as
to do substantial justice"). (551 at 89).
Rosas has been proceeding pro se from the
litigation's outset.

Indeed, the Court of Appeals for the Seventh
Circuit has followed this Court's ruling in Erickson,
by maintaining liberal pleading standards for pro
se litigants. One, it has reminded courts to
"construe pro se complaints liberally and hold them
to a less stringent standard than formal pleadings
drafted by lawyers." Arnett v. Webster, 658 F.3d
742, 751 (7th Cir. 2011) (quoting Erickson 551 U.S.
at 94, 127 S.Ct. 2197 (citation omitted); Obriecht v.
Raemisch, 517 F.3d 489, 491 n. 2 (7th Cir. 2008)). It
has also explained that the litigant only "give
enough details about the subject-matter of the case
to present a story that holds together." Swanson v.
Citibank, N.A., 614 F.3d 404 (7th Cir. 2010). App. 9.

19
Two, it noted in Osagiede v. United States,
543 F.3d 399, 405 (7th Cir. 2008), that pro se
litigants "will, at times, confuse legal theories or
draw the wrong legal implications from a set of
facts... [b]ut we [courts] do not treat every technical
defect as a grounds for rejection." Rather, the
question for the court is whether the complaint
"adequately presents the legal and factual basis for
the claim, even if the precise legal theory is
inartfully articulated or more difficult to discern."
Ambrose v. Roeckeman, 749 F.3d 615, 618 (7th Cir.
2014) (citing Osagiede). (Id.).

Finally, it has construed, where
appropriate, a pro se's filing in the district court as
what the pro se intended it to be treated, regardless
of its label. Williams v. Milwaukee Health Services,
732 F.3d 770 (7th Cir. 2013); Smith v. Grams, 565
F.3d 1037 (7th Cir. 2009); Lewis v. Sternes, 390
F.3d 1019, 1027 (7th Cir. 2004). App. 11.

Unfortunately, the reality is that the Court
of Appeals for the Seventh Circuit did not apply

20
this Court's ruling in Erickson or any of its own
case law to Rosas. In fact, Rosas was held to more
stringent standards than lawyers. As such, the
Seventh Circuit far departed from the accepted and
usual course of judicial proceedings pertaining to
pro se litigants that she calls for an exercise of this
Court's supervisory power.

A.

The Seventh Circuit's
Policy Arguments and Analogies to
Other Sources of Law Do Not Support
This Court's Ruling under Erickson

The principle support for the Court of
Appeal's holding was its assertion that Rosas,
Petitioner pro se, was not entitled to proceed in
forma pauperis, and that she erred in not following
federal and local rules of civil procedure.

In regards to proceeding in forma pauperis,
the court argued that "[u]nder 28 U.S.C. § 1915(a),
a district court may allow a litigant to proceed
"without prepayment of fees," (emphasis added) but

21
not without ever paying fees. See Robbins v.
Switzer, 104 F.3d 895, 897-88 (7th Cir. 1997)." App.
4. Rosas no longer questions her liability of court
fees.

However, Rosas still questions the validity of
the In Forma Pauperis Application and Financial
Affidavit used by the Northern District of Illinois:
Eastern Division. Of particular concern are the
questions pertaining to information about
individuals living at the same household as a
plaintiff but who are not part of the litigation, and
the lack of a question whether a plaintiff pays rent.
(See Doc. 4).

Moreover, Rosas still questions how 28
U.S.C. § 1914 provides that the filing fee in district
court is $350 (COA Doc. 8) and she was charged
$400. No local rule exists that amends the fee.

Upon further review of Robbins above, it is
worth noting that the ruling stated,

22
[w]hile in state prison, Martin
Robbins filed several lawsuits under
42 U.S.C. § 1983. Some were
dismissed because the pleadings were
inscrutable, and

Robbins did not

respond to judicial orders calling for
clarity... (Id.

at 896 [emphasis

added]).

In regards to Robbins not responding to judicial
orders calling for clarity, the Court of Appeals
never requested clarity from Rosas. It decided the
"case without oral argument because the briefs and
records adequately present[ed] the facts and legal
arguments, and oral arguments would not
significantly aid the court. FED. R. CIV. P.
34(a)(2)(C)." App. 1. Interestingly, Rosas' brief
included no argument in the argument section
(COA Doc. 8). Oral argument by Rosas would have
aided the Court of Appeals but instead it simply
affirmed the district court's ruling—a court that
had not requested clarity either. These facts do not

23
support this Court's decision under Erickson v.
Pardus, 551 U.S. 89 (2007).

Next, whether the district court did not
adhere to Federal Rule of Civil Procedure 6(c), the
Court of Appeals held, "a district court may adopt
local rules that alter the default deadlines of Rule
6". (App. 5). The Court cited Hollingsworth v.
Perry, 558 U.S. 183, 191 (2010) and Stewart Title
Guar. Co. v. Ladle Co., 74 F.3d 835, 837 n.1 (7th
Cir. 1996). At the time, Rosas, pro se litigant, was
not aware that the district court could adopt local
rules that alter default deadlines. Yet, she was
expected to know this detail.

Arguably, Rosas did not appear for the
motion hearing. However whenever counsel does
not appear for a hearing, the court usually warns
and/or fines them. Pro se litigants are normally
warned about not appearing for a hearing with a
minute entry that reads, "Plaintiff is warned that
failure without good cause to appear for the [ ]

24
hearing, or any future status or motion hearing,
will result in the dismissal of this case with
prejudice for want of prosecution." Rosas received
no such warning.

The district court never sent Rosas any
confirmation for the motion hearing. As Rosas later
learned, when there is a motion to dismiss, the
district court enters a minute entry as follows:
"Minute entry before the Honorable [ ]. The court is
in receipt of Defendant's motion to dismiss [#].
Defendant's motion to dismiss [#] is set for
presentment on [ and/or "Minute entry before the
Honorable [ ]. Defendant [ ]'s motion to dismiss [#]
is entered and continued. Plaintiff shall respond to
the motion by [ ]; Defendant [ ] shall reply by [ ]."
Rosas received no such notification.

The Court of Appeals held that it was
sufficient that "[i]t [Archdiocese] notified Rosas by
mail that its counsel 'shall appear' before the
district judge". App. 5. In other words, the Seventh
Circuit accepted that the district court had allowed

25
Respondent to dictate court proceedings. (Id., Doc.
15 at 7).

As for Perry and Stewart Title Guar. Co.,
those cases were not filed by pro se litigants and as
such do not support this Court's decision under
Erickson.

Finally to the question if the district court
violated Federal Rule of Civil Procedure
15(a)(1)(B), the Court of Appeals held, "she was
entitled to file an amended complaint 'as a matter
of course' within 21 days of the Archdiocese's
motion, permission from the judge was
unnecessary." The Court referenced Swanigan v.
City of Chicago, 775 F.3d 953, 963 (7th Cir. 2015)
and Gonzalez-Koeneke v. West, 791 F.3d 801, 80809 (7th Cir. 2015). Likewise, these two cases were
litigated by attorneys and therefore do not support
this Court's decision under Erickson.

The Respondent filed its motion to dismiss
on July 27, 2018 and the district court dismissed it

26
on August 3, 2018. Rosas, pro se Petitioner, is
unaware how Federal Rule of Civil Procedure 15
provides for a party to amend a complaint after it
has been dismissed with prejudice.

The Court of Appeals for the Seventh Circuit
cited no relevant case law pertaining to litigants
proceeding pro se, in particular

Erickson.

It

therefore conflicts with this Court's ruling in that
case and its own case law.

B. Under a Proper Standard, Rosas'
Argument Justifies Advancement to
Adjudication through Discovery

Evaluated under a correct legal standard, Rosas'
complaint, brief, and petition for rehearing were
more than sufficient to raise genuine issues of
material of fact for trial. Most significantly, it is
undisputed that the Court of Appeals conflicted
with precedent pertaining to pro se litigants, in
particular Erickson v. Pardus, 551 U.S. 89 (2007).
That comparison alone suffices to support a finding

27
that the Court's ruling is doubtful in that it did not
discuss or cite such case law, especially when Rosas
proceeded pro se since the litigation's outset.

Rosas explained how the Court of Appeals
held her to a stringent standard and treated every
technical defect of her complaint as grounds for
rejection. It ruled that Rosas was not entitled to
proceed in forma pauperis in district court, and
that she erred in not following federal and local
rules of civil procedure. Even when Rosas
attempted to rectify what the Court deemed as
"defective" in her brief, it denied her petition for
rehearing.

Rosas also demonstrated how the Court of
Appeals affirmed the district court's decision, a
decision in conflict with precedent pertaining to pro
se litigants, U.S. Codes, and Federal Rules of Civil
Procedure.

Rosas speculates that she experienced a bias
and partiality against her case because the

28
Respondent is the Roman Catholic Archdiocese of
Chicago. After the Civil Rights Restoration Act of
1987, Title VI's prohibitions were meant to be
applied institution-wide, and as broadly as
necessary to eradicate discriminatory practices
supported by federal funds. Therefore contrary to
Respondent's argument, the Archdiocese as a whole
does receive federal funds. (Doc. 32).

II.

THIS CASE PRESENTS A RECURRING
QUESTION OF EXCEPTIONAL
IMPORTANCE WARRANTING THE
COURT'S IMMEDIATE RESOLUTION

Rosas "has experience with other cases and
in different jurisdictions, and the manner in which
this case was handled presents partiality against
her case." (COA Doc. 15 at 7). Clearly, this can be
viewed as Rosas' opinion. However when her
opinion is coalesced with that of retired Seventh
Circuit Judge Richard A. Posner, her opinion is no
longer only just hers. Both elucidate the lack of due
process for pro se litigants in the Seventh Circuit.

29
To the question of why Judge Posner decided
to retire, he said, "I was not getting along with the
other judges because I was (and am) very
concerned about how the court treats pro se
litigants, who I believe deserve a better shake".
(App. 15). He also shared how the Seventh Circuit
treats pro se litigants. Judge Posner said, "The
basic thing is that most judges regard these people
as kind of trash not worth the time of a federal
judge." App. 19.

In the article "7th Circuit's chief judge
disagrees with newly retired Posner on pro se
criticisms," Chief Judge Diane Wood stated,

First, while [Judge Posner] is
certainly entitled to his own views
about such matters as our Staff
Attorney's

Office

and

the

accommodations we make for pro se
litigants, it is worth noting that his
views about that office are not shared
by the other judges on the court, and

30
his assumptions about the attitudes of
the other judges toward pro se
litigants are nothing more than that—
assumptions. App. 21.
In fact, the judges and our staff
attorneys take great care with pro se
filings, and the unanimous view of the
eleven judges on the 7th Circuit
(including actives and seniors) is that
our staff attorneys do excellent work,
comparable to the work done by our
chambers law clerks. We are lucky to
attract people of such high caliber for
these two-year positions. (Id.)

Siding with Judge Wood is difficult for Rosas. What
accommodations did the staff attorneys make for
her? How did those accommodations compare to
chamber law clerks? The panel of judges consisted
of Frank H. Easterbrook, Michael S. Kanne, and
David F. Hamilton. So it follows that there were

31
three sets of chamber law clerks for this case.
Rosas questions the "high caliber" qualifier used by
Wood. Clearly, Judge Posner's opinions are not
"assumptions."

Moreover, what accommodations did the
staff attorneys and chamber law clerks make for
Rosas in district court? It was evident that Judge
Norgle had not read or been "briefed" when he
dismissed Rosas' case with prejudice. The questions
he asked Respondent during the motion hearing on
point to that fact. (See Tr., Doc. 32). Moreover,
Rosas did not merit an order from Judge Norgle.
His dismissal with prejudice consisted of
sentences in a

5

minute entry. Judge Posner's

comparison of pro se litigants to "trash" is
appropriate here.

Petitioner's mother, Maria M. Rosas, a pro se
litigant, has experienced many irregularities in
district court too. She is appealing to the Seventh
Circuit (Rosas v. Advocate Christ Medical Center et

32
al. No. 19-1434). The case is still awaiting a
briefing schedule.

While Petitioner and her mother are only
two litigants, Petitioner has met other pro se
litigants during court proceedings in district court
who speak of irregularities with their cases. The
district court is not honoring this Court's holding in
Erickson v. Pardus, 551 U.S. 89 (2007) either.

This case is an ideal vehicle for resolving the
question presented.
CONCLUSION
Mr. Jose Cruz Rosas, Petitioner's father, was
born on May 03, 1945. As Catholics will tell you,
May 3rd is the Day of the Holy Cross and that was
why Petitioner's grandparents named her father
Jose Cruz. Mr. Rosas migrated from a small,
farming community in Mexico to the United States,
and immediately set himself to live the "American
Dream." He worked tirelessly to provide for his
family. He worked at the same meatpacking

33
company for over 30 years until 2008, when he
suddenly died of a massive heart attack on April
20th. Ironically, April 20th was the day he and his
wife became legal permanent residents in 1975.2
April 20th is also Earth Day. Somewhere it must
have been written that Mr. Rosas would depart this
world on April 20th.

But no one told Petitioner. Before Mr. Rosas
died in 2008, they had been estranged for about
three years due to a family quarrel. Just when
Petitioner and Mr. Rosas were on the verge of
mending their relationship, she learned that he had
died. She rushed back to Chicago from San
Antonio. "Time heals." "What a farce!" Time did not
heal; it just postponed the mending of their
relationship. Petitioner was left with so many
things that she wanted to say and so many things
that she wanted to do.

When she returned to live to Chicago again,
she wanted to honor her papa during Dia de los
2

Mr. Rosas eventually became a U.S. citizen.

34
muertos but then learned that she could not. How
could "All Saints Day" and "All Souls Day" be
celebrated but not Dia de los muertos? It sounded
so unfair. How could Dia de los muertos not be
celebrated if it is celebrated throughout Mexico and
the Americas with consent of the Roman Catholic
Church? It continued to sound so unfair.

Petitioner would like to celebrate her sweet
papa on Dia de los muertos. She is already
contemplating learning how to play the accordion,
so she can sing him his favorite tunes. In fact,
Petitioner also would like to celebrate other family
members interred at St. Mary's and Holy Cross
Catholic Cemeteries, other "memorial parks" owned
and operated by Respondent.

For the foregoing reasons, Rosas respectfully
requests that the Petition for Writ of Certiorari be
granted. She is not trash.

35
Respectfully submitted,

::)
---,,m‘,1,_-,__ (5.'T t,_

Irma Rosas, pro se
6333 South Lavergne Avenue
Chicago, Illinois 60638
Telephone: (773) 627-8330
E-mail: irmarosaswebsite@gmail.com

